Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




ORDERING MEDICARE EQUIPMENT
        AND SUPPLIES

        Physicians’ Perspectives




                    JUNE GIBBS BROWN
                     Inspector General

                      FEBRUARY 1999
                       OEI-02-97-00081
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Lucille Cop, RN                                         Brian Ritchie
Steve Shaw                                              Barbara Tedesco
Ellen Vinkey                                            Winnie Walker
                                                        Stuart Wright
Carmen Sanchez, Administration on Aging


      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                   EXECUTIVE                        SUMMARY


PURPOSE
      To report perceptions of physicians about the process of ordering medical equipment and
      supplies for their Medicare patients.


BACKGROUND

      In general, Medicare recognizes the physician as the key figure in determining the
      appropriate utilization of all medical services. Accordingly, Medicare requires that
      payment for certain non-physician services, such as medical equipment and supplies, are
      conditional on the existence of a physician's order or certificate of medical necessity which
      must be kept on file by the supplier.

      We are undertaking a series of studies to look at the role of the physician in certifying
      these non-physician services. This first report is about physicians’ perceptions of the
      certification process for durable medical equipment, prosthetics, orthotics, and supplies
      (DMEPOS). A subsequent report will look at whether the relationship between the
      physician and the patient affects the certification of the medical equipment and supplies
      provided. We based this report on the analysis of questionnaires sent to physicians who
      certified a sample of 1000 medical equipment or supply items.


FINDINGS

Two-thirds of Physicians Are Satisfied With the Current Process of Ordering
Medical Equipment and Supplies; One-fifth Are Not

      When asked to describe their level of satisfaction with the current Medicare process of
      ordering medical equipment and supplies, two-thirds of physicians (68 percent) say they
      are either satisfied or very satisfied with the current process. Approximately one-fifth (22
      percent) of physicians are either dissatisfied or very dissatisfied with Medicare’s ordering
      procedure. Regardless of satisfaction, many physicians suggested changes such as making
      the ordering process easier and less time consuming.




   Ordering Medicare Equipment                  1                                     OEI-02-97-00081
Information About Medicare Requirements Plays a Significant Role in Physician
Satisfaction Rates

      Seventy-nine percent of physicians who report receiving sufficient information about the
      requirements for ordering medical equipment or supplies are satisfied. Of physicians who
      report not receiving enough information, only 46 percent are satisfied. Almost one-
      quarter of physicians surveyed requested additional information about the ordering
      process. The most commonly requested information includes more detailed rules and
      specific criteria regarding Medicare coverage and eligibility. Seventy-five percent of
      physicians reported they have never received any educational materials from their
      Medicare carrier concerning the equipment and supply ordering process.

Medical Specialty Also Plays a Role

      Pulmonary disease specialists express the most dissatisfaction with the process. Almost
      one-half (43 percent) of them are dissatisfied as compared to the overall dissatisfaction
      rate of 22 percent.

Half of Physicians View the Certificate of Medical Necessity as Effective; One-fifth
Do Not

      While 56 percent of physicians say the certificate of medical necessity is effective, 21
      percent say it is not effective and another 23 percent don’t know. Physicians view the
      certificate of medical necessity as an effective monitor of fraud and abuse and quality of
      care. Sixty-seven percent of physicians report that on the average, it takes less than 15
      minutes to complete and sign a certificate. Another 31 percent report that this procedure
      takes somewhere between 15 and 30 minutes.

Some Physicians Have Sometimes Refused to Sign Certificates of Medical
Necessity

      Fifty-two percent of physicians say they have at some time refused a request to sign a
      certificate of medical necessity; however, two-thirds of these physicians say this rarely
      happens. Of the physicians who have refused to sign a certificate, the supplier has initiated
      the request approximately one-half of the time. The predominant reason physicians
      refused to sign these requests is because the patient did not need the equipment or supplies
      listed on the certificate. Additionally, physicians say their refusal is often because they did
      not know the patient.




   Ordering Medicare Equipment                  2                                       OEI-02-97-00081
Some Have Encountered Problems When Ordering Medical Equipment and
Supplies

      Twenty-one percent of physicians encounter problems when they order medical equipment
      and supplies for their patients. Among these physicians, the problems include
      inappropriate equipment and supplies, upgrading and downgrading of equipment and
      supplies, and patients getting the wrong equipment and supplies. Further, physicians also
      see unclear rules for ordering medical equipment and supplies as a problem.


RECOMMENDATION

      We recommend that the Health Care Financing Administration strengthen its efforts to
      educate physicians regarding their ordering of medical equipment and supplies. The
      following approaches are suggested:

        <	     directing the carriers to furnish all physician providers with information about
               ordering medical equipment and supplies including any OIG Fraud Alerts. Of
               particular interest is the OIG Fraud Alert on Physician Liability for Certifications in
               the Provision of Medical Equipment and Supplies and Home Health Services
               which specifically highlights physicians’ responsibilities in making certifications for
               durable medical equipment and supplies, and the legal significance of the
               certifications. A copy of this fraud alert may be found in Appendix D;

        <	     routinely providing all physicians with any changes of coverage and payment rules
               for medical equipment and supplies;

        <	     providing all physicians with a contact person at the carriers to answer questions
               about equipment or supplies; and

        <	     assuring that all certificates of medical necessity sent from the suppliers to
               physicians include the coverage and payment rules and cost of the equipment for
               the specific equipment or supplies ordered.


      COMMENTS

      We received comments on the draft report from HCFA. They generally concur with our
      recommendation. Based on their comments we changed one of the suggested approaches
      in our recommendation on providing physicians with information about ordering medical
      equipment and supplies by expanding it to apply to all physicians not just new ones. The
      HCFA’s comments are reproduced in Appendix E.


   Ordering Medicare Equipment                   3                                       OEI-02-97-00081
   We also received comments from the Assistant Secretary for Planning and Evaluation
   (ASPE). We changed the wording of another of our suggested approaches in the
   recommendation to clarify that the information about coverage and payment rules had to
   do with the specific equipment and supplies ordered rather than general guidelines.




Ordering Medicare Equipment               4                                    OEI-02-97-00081
                        TABLE                         OF               CONTENTS


                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS


          Overall Satisfaction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Need for Information about Medicare Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Specialty Plays a Role . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Effectiveness of Certificates of Medical Necessity . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Physicians Refuse to Sign Certificates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Problems Encountered in Ordering Supplies and Equipment . . . . . . . . . . . . . . . . . . . . . 14


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDICES


          A: Confidence Intervals for Key Survey Questions . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          B: Non-respondent Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


          C: Statistical Tests for Key Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


          D: Fraud Alert . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


          E: Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33





     Ordering Medicare Equipment                                   5                                                   OEI-02-97-00081
                                 INTRODUCTION


PURPOSE

      To report perceptions of physicians about the process of ordering medical equipment and
      supplies for their Medicare patients.


BACKGROUND

      In general, Medicare recognizes the physician as the key figure in determining the
      appropriate utilization of all medical services. Accordingly, Medicare requires that
      payment for certain non-physician services, such as home health agency, therapy and
      diagnostic services, as well as medical equipment and supplies, are conditional on the
      existence of a physician's order. According to Medicare regulation 42 CFR Section 424,
      the provider of these services is generally responsible for obtaining the physician
      certification and re-certification statements, and for keeping them on file for verification.

      We are undertaking a series of studies to look at the role of the physician in certifying
      these non-physician services. This first report is about physicians’ perceptions of the
      certification process for durable medical equipment, prosthetics, orthotics, and supplies
      (DMEPOS). This includes: wheelchairs and hospital beds; prosthetics and orthotics;
      catheters, ostomy, incontinence, enteral and parenteral nutrition, and wound care supplies.
      For the purposes of this report, we will refer to DMEPOS as medical equipment and
      supplies. A subsequent report will look at whether the relationship between the physician
      and the patient effects the certification of the medical equipment and supplies provided.

Medicare Expenditures for Medical Equipment and Supplies

      According to published Health Care Financing Administration statistics (HCFA), in 1995,
      Medicare paid an estimated $4.7 billion for medical equipment and supplies under part A
      and part B of the program. Part A, hospital insurance, covers services which are furnished
      by hospitals in an inpatient setting, home health agencies, and skilled nursing facilities.
      Part B, supplementary medical insurance, covers a wide array of non-institutionalized
      care. These include physician services, medical equipment and supplies, outpatient
      hospital services, diagnostic laboratory tests, x-rays, and ambulance services.




   Ordering Medicare Equipment                  6                                       OEI-02-97-00081
      The HCFA administers Medicare and contracts with private insurance companies to
      process and pay claims. Contractors that process claims for Part A, such as those for
      home health agency services, are considered fiscal intermediaries. Contractors that
      process claims for Part B, such as those for medical equipment and supplies, are
      considered carriers.

Medicare Durable Medical Equipment Regional Carriers

      In October 1993, HCFA began processing claims for medical equipment and supplies
      through four Durable Medical Equipment Regional Carriers (DMERCs). These four
      carriers are responsible for all 50 States, the District of Columbia, and Puerto Rico. These
      entities are responsible for ensuring that coverage requirements are met before approving
      payment. Although fiscal intermediaries also process some claims for medical equipment
      and supplies through the Part A coverage of home health agency services, this report will
      focus only on medical equipment and supplies that are covered by Part B and are
      processed by the DMERCs.

Certification of Medical Equipment and Supplies

      Medicare pays for medical equipment and supplies that are ordered or prescribed by a
      treating physician and are appropriate for the patient’s diagnosis and symptoms as
      determined by the DMERCs. Suppliers must obtain and keep on file a physician's order or
      prescription for all the medical equipment and supplies they bill to Medicare.

      In addition to HCFA's requirement that suppliers have a physician's order or prescription
      on file, HCFA requires that certain medical equipment and supplies have a document
      called a certificate of medical necessity (CMN). It states that the service or item claimed
      for reimbursement is medically necessary and reasonable. For the reimbursement of these
      items, a completed CMN must be submitted to the DMERCs.

      The items within the following 14 medical equipment and supply groups require a CMN:

      � hospital beds
                      � motorized wheelchairs
      � support surfaces 
                  � manual wheelchairs

      � lymphedema pumps
                   � osteogenesis stimulators

      � Transcutaneous Electrical
          � Continuous Positive Airway

         Nerve Stimulators (TENS) 
           Pressure (CPAP) devices
      � seat lift mechanisms
               � power operated vehicles

      � parenteral nutrition
               � enteral nutrition

      � home oxygen therapy
                � infusion pumps




   Ordering Medicare Equipment                  7                                    OEI-02-97-00081
      The CMNs requirements were revised in October of 1995. They were standardized and
      reformatted by HCFA and the DMERCs. Each of the aforementioned medical equipment
      and supply groups now have separate CMNs.

      CMNs now have four sections: A, B, C, and D. Section A is to be filled out by suppliers.
      Section B lists the clinical justifications or the medical necessity of the device. This
      section is not to be filled out by the supplier, but may be completed and signed by a non-
      physician clinician, or a physician’s employee. Section C contains information regarding
      the cost of the device and is to be filled out by the supplier. Section D must be signed by
      the physician certifying the medical necessity of the device and that the information in
      Section B is correct. With certain exceptions, this certifying physician cannot have any
      financial or contractual relationship with the supplier of the item. As of 1997, the
      physician signing section D must also be the patient’s treating physician.

Office of Inspector General Activities

      There have been many OIG efforts related to the utilization of non-physician services,
      including the role of physician authorization in the provision of these services. An OIG
      study entitled "The Physician's Role in Home Health Care" (OEI-02-94-00170) found that
      at least 91 percent of the physicians who certified the plan of home health care had a pre-
      existing relationship with the patient for whom the plan was designed.

      Other related OIG work includes an audit of Medicare home health agency services in
      California, Illinois, New York and Texas (A-04-94-02121) to determine whether
      payments for these fulfilled Medicare reimbursement requirements. The results of this
      audit showed that physicians did not always review or actively participate in developing
      plans of care they signed. The auditors said that physicians relied heavily on home health
      agencies to make homebound determinations and develop the plans of care for home
      health services.


METHODOLOGY

      Using a 1 percent sample of HCFA’s 1996 National Claims History (NCH) data, we
      selected a stratified, random sample of 1000 medical equipment and supply items. We
      stratified our sample between codes that require a CMN and codes that do not. We then
      further stratified the CMN codes between oxygen and non-oxygen items. This ensured
      that oxygen related line items were not over-represented in our sample.

      Within the non-CMN stratum, we selected medical equipment and supply line items from
      HCPCS codes where each item cost was more than $103 or where HCFA allowed more
      than $260,000 in 1996. These codes accounted for 96 percent of all the medical
      equipment and supply line items in 1996 and 99 percent of the total monetary amount


   Ordering Medicare Equipment                 8                                     OEI-02-97-00081
      allowed by HCFA in 1996. We further divided the 724 non-CMN codes into three
      separate groups: one containing five codes which account for 30 percent of all non-CMN
      line items; another with 20 codes which account for an additional 30 percent; and, finally,
      one with the remaining non-CMN codes. This prevented any over-representation in our
      non-CMN stratum. We randomly selected 200 line items from each of the 5 stratum for a
      total of 1000 items.

Physician Survey

      We mailed a questionnaire to the physicians certifying equipment for the 1000 line items in
      our sample in November 1997 to gain their perceptions of the certification process.
      Physicians responded to questions about their level of satisfaction with the process for
      ordering medical equipment and supplies, their experiences with CMNs, and whether or
      not they would suggest any changes to the current process. Response estimates and
      confidence intervals for key questions in our survey are listed in Appendix A.

      We conducted a second and third mailing to non-respondents and 695 questionnaires were
      returned to us, for an overall response rate of 69 percent. Our response rates between
      strata were almost identical: 70 percent for non-CMN items (strata 1, 2, and 3) and 68
      percent for CMN items (strata 4 and 5). We then weighted the data collected from these
      695 questionnaires by stratum.

      Of the 305 physicians who did not complete the questionnaire, 243 physicians did not
      respond at all. Of the remaining 62 physician non-respondents, 38 physicians could not be
      located and 24 physicians were retired and refused to fill out the survey. We conducted a
      non-respondent analysis of all physicians in our sample by analyzing several variables that
      may have influenced responses. See Appendix B for this analysis.

      This inspection was conducted in accordance with the Quality Standards for
      Inspections issued by the President’s Council on Integrity and Efficiency.




   Ordering Medicare Equipment                 9                                     OEI-02-97-00081
                                 FINDINGS


Two-thirds of physicians are satisfied with the current
process of ordering medical equipment and supplies; One-
fifth are dissatisfied
Sixty-eight percent of physicians are satisfied; twenty-two percent are
dissatisfied

      When asked to describe their level of satisfaction with the current Medicare process of
      ordering medical equipment and supplies, two-thirds of physicians (68 percent) say they
      are either satisfied or very satisfied with the current process (See Figure A below).
      Approximately one-fifth (22 percent) of physicians are either dissatisfied or very
      dissatisfied with Medicare’s ordering procedure. The remaining 11 percent expressed no
      opinion.




   Ordering Medicare Equipment               10                                   OEI-02-97-00081
      According to physicians, the process of ordering medical equipment and supplies generally
      occurs in several different ways. Most often the physician gives a prescription to the
      patient who takes it to the supplier. When the patient is in the hospital, the physician
      usually contacts the hospital discharge planner or social worker who orders the equipment
      or supplies. When the patient is receiving home health care, the physician may discuss the
      equipment or supplies with the home health agency person who actually places the order.
      Most physicians indicate that they, along with the patient or patient’s family, make the
      decision about what equipment or supplies the patient needs and which supplier to get it
      from.

      Most physicians (61 percent) also report that they find out whether the patient received
      the equipment or supplies through some sort of follow-up with the patient. More than half
      (54 percent) of the physicians describe the needed item in detail, while just over one-
      quarter (27 percent) say that the supplier makes the decision about the particular brand of
      item to be furnished.

      Regardless of satisfaction, many physicians suggest changes to the current Medicare
      process for ordering medical equipment and supplies. Of the 22 percent of physicians who
      are dissatisfied, almost all suggest improvements to the present ordering system.
      Physicians report that they would like a simpler and less time consuming durable medical
      equipment ordering process. For example, one physician responded, “it is extremely
      difficult to give each request careful attention.” However, physicians also report concerns
      that there are not always enough safeguards in the process. One physician summed these
      contrasting opinions with his statement, “It’s never easy for either side when it comes to
      paperwork, but the paper trail is necessary to prevent abuses.”

      Physicians’ satisfaction levels do not differ significantly based upon the DMERCs that
      process their claims for medical equipment and supplies. Further, satisfaction levels are
      similar among the four US geographic regions that are designated by the Census Bureau:
      Northeast, Midwest, South, and West. Finally, physicians who order equipment that
      requires a certificate of medical necessity (CMN ) have identical satisfaction rates (79
      percent) as physicians who do not. See Appendix C for this analysis.



Information about Medicare requirements plays a significant
role in physician satisfaction rates
Physicians that receive sufficient Information are more likely to be satisfied

      Seventy-nine percent of physicians who report receiving sufficient information about the
      requirements for ordering medical equipment or supplies are satisfied. Of physicians who
      report not receiving enough information, only 46 percent are satisfied.


   Ordering Medicare Equipment                11                                    OEI-02-97-00081
      Almost one-quarter of physicians requested additional information about the ordering
      process. The most commonly requested information includes more detailed rules and
      specific criteria regarding Medicare coverage and eligibility. Some physicians suggest that
      doctors who are new providers should get a packet of information on the Medicare
      process for ordering durable medical equipment. One respondent requested that a manual
      be distributed to all physicians about the certification of Medicare covered durable medical
      equipment.

      Physicians also report the need for additional information regarding the criteria for
      ordering equipment and supplies. In fact, 75 percent of physicians reported they have
      never received any educational materials from their Medicare carrier concerning the
      equipment and supply ordering process. One physician echoed the sentiments of many
      with his comment, “I am unclear as to the standards to be applied and documentation
      required. I would like more education.....”




Medical specialty also plays a role
Pulmonary disease specialists are the most dissatisfied

      Pulmonary disease specialists express the most dissatisfaction with the process. Almost
      one-half (43 percent) are either dissatisfied or very dissatisfied, as illustrated in Table A
      below. Reasons cited for physicians’ dissatisfaction include too much paperwork,
      complex forms, and time constraints. One pulmonologist expressed these thoughts, “I am
      being asked to re-document the need for equipment to treat chronic illnesses which never
      go away. Please stop making us do this over and over again.”

      General surgeons and ophthalmologists are the most satisfied among all specialties. Only
      5 percent of general surgeons and 6 percent of ophthalmologists expressed some degree of
      dissatisfaction. The dissatisfaction rate of the remaining physician specialties ranges
      between 17 percent and 29 percent. This is close to the overall physician dissatisfaction
      mean of 22 percent.




   Ordering Medicare Equipment                 12                                      OEI-02-97-00081
                                            Table A
                             Physician Dissatisfaction By Specialty


                        Specialty                    Percent Dissatisfied
                    Pulmonary Disease                           43%
         Physical Medicine and Rehabilitation                   29%
                      Family Practice                           28%
                         Cardiology                             25%
                     Internal Medicine                          22%
             Overall Specialty Average                          22%
                      General Practice                          22%
                            Other                               19%
                    Orthopedic Surgery                          18%
                      Ophthalmology                              6%
                      General Surgery                            5%




Half of physicians view the certificate of medical necessity
as effective
While 56 percent of physicians say the CMN is effective, 21 percent say the CMN
is not effective and another 23 percent don’t know

      Physicians in support of the CMN say it allows them to review the condition of their
      patients. The form reminds physicians to periodically check their patients’ status and
      analyze current and future equipment needs. Further, physicians point to the CMN as an
      effective monitor of fraud and abuse. One physician stated, “I believe that the vast
      majority of times the CMN assures the proper use of medical equipment.”

      Physicians who report the CMN as not being effective question whether or not the form
      assures improved utilization. These physicians also suggest that CMNs present additional
      unnecessary paperwork burdens and are often cumbersome.

   Ordering Medicare Equipment                  13                                OEI-02-97-00081
      However, 67 percent of physicians report that on the average, it takes less than 15 minutes
      to complete and sign a CMN. Additionally, another 31 percent report that this procedure
      takes somewhere between 15 and 30 minutes. Only 2 percent of physicians report
      spending more than thirty minutes to complete and sign a CMN.

Physicians report the supplier sometimes fills out Section B

      Section B of the CMN lists the clinical justifications or the medical necessity of the device.
      This section is not to be filled out by the supplier. This section may be completed by a
      non-physician clinician or a physician’s employee as well as the physician. When the
      physician signs the CMN, he agrees to the accuracy of the information provided in Part B.

      When asked who usually fills out Section B of the CMN, physicians usually gave more
      than one answer. One-fourth of physicians (24 percent) responded that the supplier
      sometimes fills it out. Additionally, 78 percent reported that the physician sometimes
      completes this section. Other responses include therapists or home health agency staff.




Some physicians have sometimes refused to sign
certificates of medical necessity
Half of physicians have refused to sign a CMN at least once

      While 52 percent of physicians say they have at some time refused to sign a CMN request,
      two-thirds of these physicians say this rarely happens. Of the physicians who have refused
      to sign a CMN, the supplier has initiated the request approximately one-half of the time.
      The predominant reason physicians refused to sign these requests is because the patient
      did not need the equipment or supplies listed on the CMN. Additionally, physicians say
      their refusal is often because they did not know the patient.




Some have also encountered problems when ordering
medical equipment and supplies
One in five physicians have encountered problems when ordering equipment
and supplies

      Twenty-one percent of physicians encounter problems when they order medical equipment
      and supplies for their patients. Of these physicians, problems include inappropriate
      equipment and supplies, upgrading and downgrading of equipment and supplies, and

   Ordering Medicare Equipment                 14                                      OEI-02-97-00081
   providing the wrong equipment and supplies. Physicians believe that inappropriate
   equipment and supplies and the wrong equipment and supplies are the greatest problems.
   Further, physicians request clearer ordering rules and detailed descriptions of equipment
   and supplies they order. One physician stated, “I would appreciate any updated equipment
   need criteria to ensure who qualifies for what equipment and what specific criteria must be
   met during the ordering process.”




Ordering Medicare Equipment                15                                    OEI-02-97-00081
                       RECOMMENDATION


   We recommend that the Health Care Financing Administration strengthen its efforts to
   educate physicians regarding their ordering of medical equipment and supplies. The
   following approaches are suggested:

     <	     directing the carriers to furnish all physician providers with information about
            ordering medical equipment and supplies including any OIG Fraud Alerts. Of
            particular interest is the OIG Fraud Alert on Physician Liability for Certifications in
            the Provision of Medical Equipment and Supplies and Home Health Services
            which specifically highlights physicians’ responsibilities in making certifications for
            durable medical equipment and supplies, and the legal significance of the
            certifications. A copy of this fraud alert may be found in Appendix D;

   <	       routinely providing all physicians with any changes of coverage and payment rules
            for medical equipment and supplies;

     <	     providing all physicians with a contact person at the carriers to answer questions
            about equipment or supplies; and

     <	     assuring that all certificates of medical necessity sent from the suppliers to
            physicians include the coverage and payment rules and cost of the equipment or
            supplies for the specific equipment or supplies ordered.


   COMMENTS

   We received comments on the draft report from HCFA. They generally concur with our
   recommendation. Based on their comments we changed one of the suggested approaches
   in our recommendation on providing physicians with information about ordering medical
   equipment and supplies by expanding it to apply to all physicians not just new ones. The
   HCFA’s comments are reproduced in Appendix E.

   We also received comments from the Assistant Secretary for Planning and Evaluation
   (ASPE). We changed the wording of another of our suggested approaches in the
   recommendation to clarify that the information about coverage and payment rules had to
   do with the specific equipment and supplies ordered rather than general guidelines.




Ordering Medicare Equipment                   16                                      OEI-02-97-00081
                                                                          APPENDIX A


          Confidence Intervals For Key Survey Questions


   We calculated confidence intervals for 14 key questions from the physician questionnaire.
   The response estimate and 95 percent interval are given for each of the following:


   1. 	     How would you describe your level of satisfaction with current Medicare process
            for ordering medical equipment and supplies?
            “Very or somewhat satisfied” response estimate: 68%
            Lower interval: 66%
            Upper interval: 70%


   2.	      Would you make any changes to the process of ordering medical equipment
            and supplies?
            “Yes” response estimate: 54%
            Lower interval: 51%
            Upper interval: 57%


   3.	      Have you ever received any educational materials from your Medicare carrier
            regarding the provision of medical equipment or supplies?
            “No” response estimate: 75%
            Lower interval: 73%
            Upper interval: 77%


   4.	      Do you feel that you have been provided sufficient information with regard to the
            criteria for ordering medical equipment and supplies for Medicare beneficiaries?
            “No” response rate: 23%
            Lower interval: 21%
            Upper interval: 26%


   5.	      Who primarily decided the patient needed the equipment or supplies?
            “I did” and “the patient or the patient’s family” response estimate: 82%
            Lower interval: 80%
            Upper interval: 84%

Ordering Medicare Equipment                 17                                     OEI-02-97-00081
   6.	      Who primarily selected the company that provided the equipment or supplies?
            “I did” and “the patient or the patient’s family” response estimate: 55%
            Lower interval: 52%
            Upper interval: 57%


   7.	      Generally, how does the process of ordering medical equipment and supplies
            work for you?
            “I give a prescription to a patient who takes it directly to the supplier”
            response rate: 62%
            Lower interval: 60%
            Upper interval: 65%


   8.	      When you order equipment or supplies, who generally describes the type of item in
            detail?
            “I do” response rate: 54%
            Lower interval: 51%
            Upper interval: 56%


   9.	      How do you know if your patients receive the equipment or supplies?
            “I follow up/I call or see the patients” response rate: 61%
            Lower interval: 58%
            Upper interval: 63%


   10.	     Have you ever encountered any problems when ordering equipment or supplies
            for your patients?
            “Yes” response rate: 21%
            Lower interval: 19%
            Upper interval: 22%


   11.	     In your opinion, is the use of the CMN effective to assure the proper utilization of
            medical equipment and supplies?
            “Yes” response rate: 56%
            Lower interval: 53%
            Upper interval: 58%




Ordering Medicare Equipment                  18                                     OEI-02-97-00081
   12.	     Have you ever received a request to sign a CMN that you refused to sign?
            “Yes” response rate: 52%
            Lower interval: 50%
            Upper interval: 55%


   13.	     What are some of the reasons that you did not sign these requests?
            “The patient did not need the equipment or supplies” response rate: 70%
            Lower interval: 67%
            Upper interval: 73%


   14.	     Who is most likely to initiate a request that you do not sign?
            “The supplier” response rate: 44%
            Lower interval: 41%
            Upper interval: 47%


   15.	     On the average, how long does it take you to complete and sign a CMN?
            “Less than 15 minutes” response rate: 67%
            Lower interval: 64%
            Upper interval: 70%




Ordering Medicare Equipment                  19                                  OEI-02-97-00081
                                                                          APPENDIX B


                              Non-respondent Analysis


   When questionnaires are used to collect data, the results may be biased if non-respondents
   differ from respondents. For this inspection, a physician for whom a questionnaire was
   not received is a non-respondent. A total of 695 questionnaires were completed, for an
   overall response rate of 69 percent. The remaining 305 questionnaires were not
   completed, for a non-respondent rate of 31 percent. Table B illustrates the number of
   responses and the response rate by strata without weights:


                                           Table B
                              Physician Response Rate By Strata

                  Strata                  Number              Response Rate
                     1                      144                     72%
                     2                      152                     76%
                     3                      126                     63%
                     4                      147                     73%
                     5                      126                     63%
          Total Respondents                 695                    69%



   To test for the presence of any non-response bias, we analyzed the variables that might
   influence whether or not a physician would respond to the questionnaire. For the
   physicians in our sample, we examined geographic region, Durable Medical Equipment
   Regional Carriers, and physician specialty. These categorical variables were weighted and
   tested using Chi-square with the appropriate degrees of freedom. The results for this
   analysis are presented in tables B-1, B-2, and B-3. The Chi-square values given in the
   tables provide a test of the difference between the distribution of the respondents and that
   of the non-respondents for the variable of interest. Also provided in the tables are the
   response rate by the different values of the variables.



Ordering Medicare Equipment                  20                                    OEI-02-97-00081
                                          Table B-1
                                      Geographic Region

                      Respondents           Non-Respondents       Total     Response
                                                                              Rate
Northeast       62603.61        20%        22827.42       16%   85431.03       73%
 Midwest        75503.61        24%        35977.64       26%   111481.25      68%
  South        128250.45        40%        61614.44       44%   189864.89      68%
  West          50456.71        16%        19126.42       14%   69583.13       73%
  Total        316814.38        100%      139545.92   100%      456360.30      69%
CHI-SQUARE = 2.38
Degrees of Freedom = 3




                                        Table B-2
                       Durable Medical Equipment Regional Carriers

                      Respondents           Non-Respondents       Total     Response
                                                                              Rate
Region A        62588.04        19%        23992.45       15%   86580.49       72%
Region B        73518.87        22%        38621.84       24%   112140.71      66%
Region C       131585.18        40%        73349.88       46%   204935.06      64%
Region D        61067.50        19%        22692.24       15%   83759.74       73%
  Total        328759.59        100%      158656.41   100%      487416.00      68%
CHI-SQUARE = 5.79
Degrees of Freedom = 3




  Ordering Medicare Equipment                21                             OEI-02-97-00081
                                            Table B-3
                                       Physician Specialty

                                Respondents      Non-Respondents             Total       Response
                                                                                           Rate
 General Practice         32752.73       10%     16918.96        12%       49671.69         66%
 General Surgery          11799.07       4%       7418.73        5%        19217.80         61%
    Cardiology             8091.05       2%       3659.92        3%        11750.97         69%
  Family Practice         53930.38       17%     25022.69        17%       78953.07         68%
 Internal Medicine        96206.08       30%     55235.16        38%      151441.24         64%
  Ophthalmology           18632.00       6%       1199.24        1%        19831.24         94%
Orthopedic Surgery        12230.46       4%       4213.56        3%        16444.02         74%
       PMR                 7560.38       2%       3440.45        2%        11000.83         69%
Pulmonary Disease         31448.39       10%      7993.13        6%        39441.52         80%
      Other               53159.64       15%     19448.40        13%       72608.04         73%
      Total               325810.18     100%     144550.24      100%      470360.42         69%
CHI-SQUARE = 26.83
Degrees of Freedom = 9


     Tables B-1 and B-2 show no statistically significant differences between respondents and
     non-respondents for geographic region and Durable Medical Equipment Regional Carrier.
     In order for the results to be statistically significant at the 95 percent confidence level, the
     Chi-square value must be higher than 7.81 with 3 degrees of freedom.

     Table B-3 shows a statistically significant difference between respondents and non-
     respondents with respect to type of physician specialty. A Chi-square value higher than
     16.9 with 9 degrees of freedom suggests that physician specialty may influence whether or
     not a physician responded to the questionnaire. In order to test whether this difference
     introduced any bias, we analyzed the rates of overall satisfaction with the Medicare
     process for ordering medical equipment and supplies, for differences between internal
     medicine and all other physician specialties. We analyzed physician satisfaction in this way
     because internal medicine demonstrated a high percentage of the overall non-respondents.
     No significant difference exists as Table B-4 illustrates below.


  Ordering Medicare Equipment                  22                                       OEI-02-97-00081
                                       Table B-4
               Satisfaction: Internal Medicine vs. All Other Specialties

                                Respondents    Non-Respondents        Total      Satisfaction
                                                                                    Rate
 Internal Medicine        60300.52       30%   17419.68   28%       77720.20          78%
    All Other             136870.41      70%   45193.21   72%      182063.62          75%
    Specialties
      Total               197170.93     100%   62612.89   100%     259783.82          76%
CHI-SQUARE = 0.35
Degrees of Freedom = 1


     Tables B-1, B-2, and B-4 show no statistically significant differences between respondents
     and non-respondents for any of the variables tested. Given the results of this analysis, we
     believe that the inspection findings fairly represent the experience and opinions of
     physicians to whom the questionnaires were sent. We therefore believe that our survey
     results can be generalized to the universe of physicians who ordered Medicare medical
     equipment and supplies during 1996.




  Ordering Medicare Equipment                  23                                   OEI-02-97-00081
                                                                           APPENDIX C


                       Statistical Tests for Key Findings


     We computed Chi-square values for differences in physicians’ overall satisfaction for eight
     variables. All variables were analyzed at the 95 percent confidence level. As shown in
     Table C-1 below, some variables demonstrate statistically significant satisfaction
     differences and some variables do not. The direction of the differences below are
     discussed in the findings of this report.


                                  Table C-1
   Chi-Square Values for Testing Significance of Differences in Satisfaction

          Variable                Degrees of        Chi-Square       Significant Satisfaction
                                  Freedom                                   Difference
    Physician Specialty                9               22.37                    Yes
Provided Sufficient Criteria           1               15.71                    Yes
       for Ordering
 Problems When Ordering                1                4.57                    Yes
  Refused to Sign a CMN                1               11.21                    Yes
 CMN Effective to Assure               1               73.97                    Yes
   Proper Utilization
          DMERC                        3                1.85                    No
    Geographic Region                  3                1.69                    No
    CMN Requirement                    1                0.01                    No




 Ordering Medicare Equipment                 24                                      OEI-02-97-00081
                                                                       APPENDIX D
       OFFICE OF
       INSPECTOR
       GENERAL


                          SPECIAL FRAUD ALERT

                                        ALERT

      PHYSICIAN LIABILITY FOR CERTIFICATIONS IN THE
    PROVISION OF MEDICAL EQUIPMENT AND SUPPLIES AND
                 HOME HEALTH SERVICES

January 1999



T    he Office of Inspector General (OIG) was established at the Department of Health
     and Human Services by Congress in 1976 to identify and eliminate fraud, waste, and
abuse in the Department’s programs and to promote efficiency and economy in
departmental operations. The OIG carries out this mission through a nationwide program
of audits, inspections, and investigations.

To reduce fraud and abuse in the Federal health care programs, including Medicare and
Medicaid, the OIG actively investigates fraudulent schemes that obtain money from these
programs and, when appropriate, issues Special Fraud Alerts that identify segments of the
health care industry that are particularly vulnerable to abuse. Copies of all OIG Special
Fraud Alerts are available on the internet at:

                       http://www.dhhs.gov/progorg/oig/frdalrt/index.htm

We are issuing this Fraud Alert because physicians may not appreciate the legal and
programmatic significance of certifications they make in connection with the ordering of
certain items and services for their Medicare patients. While the OIG believes that the
actual incidence of physicians’ intentionally submitting false or misleading certifications
of medical necessity for durable medical equipment or home health care is relatively
infrequent, physician laxity in reviewing and completing these certifications contributes
to fraudulent and abusive practices by unscrupulous suppliers and home health providers.
We urge physicians and their staff to report any suspicious activity in connection with the
solicitation or completion of certifications to the OIG.
Physicians should also be aware that they are subject to substantial criminal, civil, and
administrative penalties if they sign a certification knowing that the information relating

     Ordering Medicare Equipment              25                               OEI-02-97-00081
to medical necessity is false, or with reckless disregard as to the truth of the information
being submitted. While a physician’s signature on a false or misleading certification
made through mistake, simple negligence, or inadvertence will not result in personal
liability, the physician may unwittingly be facilitating the perpetration of fraud on
Medicare by suppliers or providers. Accordingly, we urge all physicians to review and
familiarize themselves with the information in this Fraud Alert. If a physician has any
questions as to the application of these requirements to specific facts, the physician
should contact the appropriate Medicare Fiscal Intermediary or Carrier.


THE IMPORTANCE OF PHYSICIAN CERTIFICATION FOR MEDICARE


T     he Medicare program only pays for health care services that are medically necessary.
      In determining what services are medically necessary, Medicare primarily relies on
the professional judgment of the beneficiary’s treating physician, since he or she knows
the patient’s history and makes critical decisions, such as admitting the patient to the
hospital; ordering tests, drugs, and treatments; and determining the length of treatment.
In other words, the physician has a key role in determining both the medical need for, and
utilization of, many health care services, including those furnished and billed by other
providers and suppliers.

Congress has conditioned payment for many Medicare items and services on a
certification signed by a physician attesting that the item or service is medically
necessary. For example, physicians are routinely required to certify to the medical
necessity for any service for which they submit bills to the Medicare program.

Physicians also are involved in attesting to medical necessity when ordering services or
supplies that must be billed and provided by an independent supplier or provider.
Medicare requires physicians to certify to the medical necessity for many of these items
and services through prescriptions, orders, or, in certain specific circumstances,
Certificates of Medical Necessity (CMNs). These documentation requirements
substantiate that the physician has reviewed the patient’s condition and has determined
that services or supplies are medically necessary.

Two areas where the documentation of medical necessity by physician certification plays
a key role are (i) home health services and (ii) durable medical equipment (DME).
Through various OIG audits, we have discovered that physicians sometimes fail to
discharge their responsibility to assess their patients’ conditions and need for home health
care. Similarly, the OIG has found numerous examples of physicians who have ordered
DME or signed CMNs for DME without reviewing the medical necessity for the item or
even knowing the patient.


PHYSICIAN CERTIFICATION FOR HOME HEALTH SERVICES

    Ordering Medicare Equipment              26                                   OEI-02-97-00081
M      edicare will pay a Medicare-certified home health agency for home health care
       provided under a physician’s plan of care to a patient confined to the home.
Covered services may include skilled nursing services, home health aide services,
physical and occupational therapy and speech language pathology, medical social
services, medical supplies (other than drugs and biologicals), and DME.

As a condition for payment, Medicare requires a patient’s treating physician to certify
initially and recertify at least every 62 days (2 months) that:

#       the patient is confined to the home;

#	      the individual needs or needed (i) intermittent skilled nursing care; (ii) speech or
        physical therapy or speech-language pathology services; or (iii) occupational
        therapy or a continued need for occupational therapy (payment for occupational
        therapy will be made only upon an initial certification that includes care under (i)
        or (ii) or a recertification where the initial certification included care under (i) or
        (ii));

#	      a plan of care has been established and periodically reviewed by the physician;
        and

#	      the services are (were) furnished while the patient is (was) under the care of a
        physician.

The physician must order the home health services, either orally or in writing, prior to the
services being furnished. The physician certification must be obtained at the time the
plan of treatment is established or as soon thereafter as possible. The physician
certification must be signed and dated prior to the submission of the claim to Medicare.
If a physician has any questions as to the application of these requirements to specific
facts, the physician should contact the appropriate Medicare Fiscal Intermediary or
Carrier.


PHYSICIAN ORDERS AND CERTIFICATES OF MEDICAL NECESSITY FOR
DURABLE MEDICAL EQUIPMENT, PROSTHETICS, ORTHOTICS, AND
SUPPLIES FOR HOME USE


D     ME is equipment that can withstand repeated use, is primarily used for a medical
      purpose, and is not generally used in the absence of illness or injury. Examples
include hospital beds, wheelchairs, and oxygen delivery systems. Medicare will cover
medical supplies that are necessary for the effective use of DME, as well as surgical
dressings, catheters, and ostomy bags. However, Medicare will only cover DME and
supplies that have been ordered or prescribed by a physician. The order or prescription

     Ordering Medicare Equipment               27                                   OEI-02-97-00081
must be personally signed and dated by the patient’s treating physician.

DME suppliers that submit bills to Medicare are required to maintain the physician’s
original written order or prescription in their files. The order or prescription must
include:

#       the beneficiary’s name and full address;

#       the physician’s signature;

#       the date the physician signed the prescription or order;

#       a description of the items needed;

#       the start date of the order (if appropriate); and

#	      the diagnosis (if required by Medicare program policies) and a realistic estimate of
        the total length of time the equipment will be needed (in months or years).

For certain items or supplies, including supplies provided on a periodic basis and drugs,
additional information may be required. For supplies provided on a periodic basis,
appropriate information on the quantity used, the frequency of change, and the duration
of need should be included. If drugs are included in the order, the dosage, frequency of
administration, and, if applicable, the duration of infusion and concentration should be
included.

Medicare further requires claims for payment for certain kinds of DME to be
accompanied by a CMN signed by a treating physician (unless the DME is prescribed as
part of a plan of care for home health services). When a CMN is required, the provider
or supplier must keep the CMN containing the treating physician’s original signature and
date on file.

Generally, a CMN has four sections:

#	      Section A contains general information on the patient, supplier, and physician.
        Section A may be completed by the supplier.

#	      Section B contains the medical necessity justification for DME. This cannot be
        filled out by the supplier. Section B must be completed by the physician, a non-
        physician clinician involved in the care of the patient, or a physician employee.
        If the physician did not personally complete section B, the name of the person who
        did complete section B and his or her title and employer must be specified.

#       Section C contains a description of the equipment and its cost. Section C is

     Ordering Medicare Equipment               28                                OEI-02-97-00081
        completed by the supplier.

#	      Section D is the treating physician’s attestation and signature, which certifies that
        the physician has reviewed sections A, B, and C of the CMN and that the
        information in section B is true, accurate, and complete. Section D must be
        signed by the treating physician. Signature stamps and date stamps are not
        acceptable.

By signing the CMN, the physician represents that:

#	      he or she is the patient’s treating physician and the information regarding the
        physician’s address and unique physician identification number (UPIN) is correct;

#	      the entire CMN, including the sections filled out by the supplier, was completed
        prior to the physician’s signature; and

#	      the information in section B relating to medical necessity is true, accurate, and
        complete to the best of the physician’s knowledge.


IMPROPER PHYSICIAN CERTIFICATIONS FOSTER FRAUD


U     nscrupulous suppliers and providers may steer physicians into signing or authorizing
      improper certifications of medical necessity. In some instances, the certification
forms or statements are completed by DME suppliers or home health agencies and
presented to the physician, who then signs the forms without verifying the actual need for
the items or services. In many cases, the physician may obtain no personal benefit when
signing these unverified orders and is only accommodating the supplier or provider.
While a physician’s signature on a false or misleading certification made through
mistake, simple negligence, or inadvertence will not result in personal liability, the
physician may unwittingly be facilitating the perpetration of fraud on Medicare by
suppliers or providers. When the physician knows the information is false or acts with
reckless disregard as to the truth of the statement, such physician risks criminal, civil, and
administrative penalties.

Sometimes, a physician may receive compensation in exchange for his or her signature.
Compensation can take the form of cash payments, free goods, or any other thing of
value. Such cases may trigger additional criminal and civil penalties under the anti-
kickback statute.

The following are examples of inappropriate certifications uncovered by the OIG in the
course of its investigations of fraud in the provision of home health services and medical
equipment and supplies:


     Ordering Medicare Equipment              29                                  OEI-02-97-00081
#	      A physician knowingly signs a number of forms provided by a home health agency
        that falsely represent that skilled nursing services are medically necessary in order
        to qualify the patient for home health services.

#	      A physician certifies that a patient is confined to the home and qualifies for home
        health services, even though the patient tells the physician that her only restrictions
        are due to arthritis in her hands, and she has no restrictions on her routine
        activities, such as grocery shopping.

#	      At the prompting of a DME supplier, a physician signs a stack of blank CMNs for
        transcutaneous electrical nerve stimulators (TENS) units. The CMNs are later
        completed with false information in support of fraudulent claims for the
        equipment. The false information purports to show that the physician ordered and
        certified to the medical necessity for the TENS units for which the supplier has
        submitted claims.

#	      A physician signs CMNs for respiratory medical equipment falsely representing
        that the equipment was medically necessary.

#	      A physician signs CMNs for wheelchairs and hospital beds without seeing the
        patients, then falsifies his medical charts to indicate that he treated them.

#	      A physician accepts anywhere from $50 to $400 from a DME supplier for each
        prescription he signs for oxygen concentrators and nebulizers.



POTENTIAL CONSEQUENCES FOR UNLAWFUL ACTS


A    physician is not personally liable for erroneous claims due to mistakes,
     inadvertence, or simple negligence. However, knowingly signing a false or
misleading certification or signing with reckless disregard for the truth can lead to serious
criminal, civil, and administrative penalties including:

#       criminal prosecution;

#       fines as high as $10,000 per false claim plus treble damages; or
#	      administrative sanctions including: exclusion from participation in Federal health
        care programs, withholding or recovery of payments, and loss of license or
        disciplinary actions by state regulatory agencies.

Physicians may violate these laws when, for example:

#       they sign a certification as a “courtesy” to a patient, service provider, or DME

     Ordering Medicare Equipment              30                                   OEI-02-97-00081
         supplier when they have not first made a determination of medical necessity;

#	       they knowingly or recklessly sign a false or misleading certification that causes a
         false claim to be submitted to a Federal health care program; or

#	       they receive any financial benefit for signing the certification (including free or
         reduced rent, patient referrals, supplies, equipment, or free labor).

Even if they do not receive any financial or other benefit from providers or suppliers,
physicians may be liable for making false or misleading certifications.


WHAT TO DO IF YOU HAVE INFORMATION ABOUT FRAUD AND ABUSE
AGAINST MEDICARE OR MEDICAID PROGRAMS

If you have information about physicians, home health agencies, or medical equipment
and supply companies engaging in any of the activities described above, contact any of
the regional offices of the Office of Investigations of the Office of Inspector General,
U.S. Department of Health and Human Services, at the following locations:


Field Offices                      States Served           Telephone


Boston	                            MA, VT ,NH, ME,         617-565-2664
                                   RI, CT


New York                           NY, NJ, PR, VI          212-264-1691


Philadelphia	                      PA, MD, DE, WV,         215-861-4586
                                   VA, DC


Atlanta	                           GA, KY, NC, SC,         404-562-7603
                                   FL, TN, AL, MS


Chicago                            IL, MN, WI, MI,         312-353-2740
                                   IN, OH, IA, MO

Dallas                             TX, NM, OK, AR,         214-767-8406
                                   LA, CO, UT, WY,
                                   MT, ND, SD, NE, KS


     Ordering Medicare Equipment                     31                             OEI-02-97-00081
Los Angeles                       AZ, NV, So. CA        714-246-8302


San Francisco                     No. CA, AK, HI        415-437-7961
                                  OR, ID, WA




    Ordering Medicare Equipment                    32                  OEI-02-97-00081
                                                                       APPENDIX E

                        Comments on the Draft Report


   In this appendix, we present in full the comments from the Health Care Financing
   Administration.




Ordering Medicare Equipment               33                                    OEI-02-97-00081
Ordering Medicare Equipment   34   OEI-02-97-00081
Ordering Medicare Equipment   35   OEI-02-97-00081
Ordering Medicare Equipment   36   OEI-02-97-00081
